Docket No. 20-253

IN rHn

Supreme Court of the United States

Cnnrsropsnn CaSTAGNA; Gavrx CesracNa
Petitioners,
U

Hannv JnaN; Kpnu KarraN; Danau ElwAnos,
Respondents,

On Petition for Writ of Certiorari
United States Court of Appeals for the First Circuit

PROOF OF SERVICE

I, Paul J. Klehm, Etq., counsel of record for Petitioners Christopher Castagna
and Gavin Castagna, and a member of the Bar of this Court, hereby certify that on

the 9th day of November, 2020, pursuant to Supreme Court Covid Order dated

April

15, 2020 and Supreme Court Rule 29.3,I caused to be served one (1) copy of

the Reply Brief in Support of Petition for Writ of Certiorari in the above-referenced
case by Federal Express, upon the counsel for Respondents as listed below:

Nicole M. O'Connor, Esq.
Senior Assistant Corporation Counsel
City of Boston Law Department
City Hall, Room 615
Boston, MA. 02201
617-635-4039
Coun sel for Respondents

Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to counsel for
Respondents at the following email address:
Nicole.

O

Connor@boston. gov

I further certify that all parties required to be served

ve been served.

Paul J. Klehm, Esq.
Counsel of Record
James B. Krasnoo, Esq.
Benjamin L. Falkner, Esq.
Krasnoo, Klehm & Falkner LLP
28 Andover Street, Suite 240
Andover, MA 01810
(e78) 475-9955
p kle hm@kkf- attornel's. com
Counsel for Petitioners Christopher
Castagna and Gauin Castagn"a

Dated: November 9,2020

2

